           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation

           Office of Inspector General
           ____________________________________________________________________________________________________________________
           _____________
Subject:                                                                                        Date:
           ACTION: Results of OIG Investigation                                                          August 31, 2006
           of 9/11 Commission Staff Referral
  From:                                                                                      Reply to
           Todd J. Zinser                                                                     Attn of:
           Acting Inspector General
    To:
           The Acting Secretary
           Federal Aviation Administrator

           Introduction

           By letter dated July 29, 2004, the General Counsel for the National Commission on
           Terrorist Attacks Upon the United States, on behalf of the Commission staff, referred
           to the Department of Defense (DOD) and Department of Transportation (DOT)
           Inspectors General information concerning several inaccurate statements made by
           DOD and Federal Aviation Administration (FAA) officials regarding FAA
           notifications to DOD about the airplane hijackings on September 11, 2001. The letter
           noted that the Commission, which would “sunset” on August 26, 2004, did not
           investigate whether the inaccurate statements were knowingly false; thus, the
           Commission staff’s referral noted that this information was being provided to the
           Inspectors General for appropriate action.

           Based on the Commission staff’s referral, our office investigated whether FAA
           officials knowingly made any false statements. We also investigated whether FAA
           officials intentionally omitted accurate information from any statement or failed to
           correct an inaccurate statement after becoming aware of it. Separately, but in
           coordination with our office, the DOD Office of Inspector General (OIG) undertook a
           similar review with regard to the actions of DOD officials, namely North American
           Aerospace Defense Command (NORAD) officials.

           In addition to conferring with Commission staff, our investigation included interviews
           of 34 current and former FAA and other DOT officials, government contractors, and
           other private citizens, and we examined voluminous records. Specifically, we
           reviewed the Commission’s Final Report, Commission Staff Statements, transcripts of


           Report No. CC-2006-085
                                                                                     2

Commission hearings, written statements presented to the Commission, and
memoranda and transcripts of numerous interviews conducted by the Commission.
Additionally, we reviewed documents chronicling the events of September 11, as well
as over 1,000 other documents, including air traffic control transcripts and FAA and
DOD event logs, emails, faxes, memoranda, and correspondence. We also assigned an
investigator to assist DOD/OIG in its review.

Results in Brief

1. We did not find evidence to conclude that FAA officials knowingly made false
   statements, purposely omitted accurate information from any statement, or
   intentionally failed to correct any inaccurate statement after becoming aware of it,
   regarding FAA notifications to DOD about the September 11 hijackings.

2. Our investigation disclosed that FAA inaccurately reported on its public website in
   2002 that FAA notified DOD of the suspected hijacking of American Flight 77 at
   9:24 a.m. on September 11. (In fact, no such notification was made.) FAA
   officials promptly corrected this error—which we attribute to FAA’s reliance on an
   erroneous timeline entry—after we brought it to their attention in Fall 2004.

3. We found that in its response to a May 22, 2003, Commission Question for the
   Record (QFR), FAA again inaccurately reported that it had notified DOD about
   American Flight 77. This, too, we attribute to FAA’s reliance on an erroneous
   timeline entry.

4. While investigating FAA’s QFR response, we found that it also inaccurately
   reported that the Air Force Liaison to FAA had joined an FAA headquarters phone-
   bridge and established contact with NORAD “immediately” following the crash of
   the first aircraft (American Flight 11) into the World Trade Center at
   8:46 a.m. In fact, the Liaison did not join the phone-bridge until after the third
   hijacked aircraft (American Flight 77) struck the Pentagon at 9:37 a.m.

   We further found that three FAA executives (two current and one now-retired)
   learned of this inaccuracy from the Liaison shortly following FAA’s submission of
   the QFR response. The two current FAA executives told us they thought the
   Liaison, when interviewed by Commission staff, would correct the inaccuracy.
   However, the Liaison told us that no one at FAA spoke to her about making a
   correction and she did not address this issue when interviewed by Commission
   staff. As a result, this inaccuracy was not corrected with the Commission.




Report No. CC-2006-085
                                                                                                            3

5. During our investigation, we also reviewed FAA’s post-September 11 capability to
   notify federal agencies about a hijacked or suspicious aircraft, as well as FAA’s
   capability to investigate its handling of a hijacked or suspicious aircraft. We found
   that FAA acted to improve these capabilities, including:

    • Establishing the Domestic Events Network (DEN), a nationwide, continuously
      open telephone line managed by FAA, designed to allow federal agencies with
      jurisdiction over the security of U.S. airspace to communicate information in
      real-time.

    • Instituting new procedures for air traffic controllers on communicating
      information about a hijacked or suspicious aircraft over the DEN.

    • Installing equipment to record most FAA Washington Operations Center
      Complex (WOCC) telephone lines. (Prior to September 11, FAA did not record
      any WOCC telephone lines.)

Based on our findings detailed below, we are making recommendations to the FAA
Administrator for enhancing FAA’s capability to respond to and report on hijacked or
suspicious aircraft. We are also recommending that FAA correct its response to the
Commission’s QFR and consider appropriate administrative action for the two current
executives who did not act to correct the record with the Commission. As a mitigating
factor, and to provide some context, we note that at the time, the FAA, including these
executives, produced over 6,000 documents and materials to the Commission.

Details

Background on Commission Staff Referral

As part of its statutory mandate to investigate the “facts and circumstances relating to
the terrorist attacks of September 11, 2001,” the Commission examined the interaction
between FAA and DOD. The Commission’s findings included the specific hours and
minutes when FAA notified DOD about the four hijacked aircraft. The summary
chronology for each of the hijacked flights from the Commission’s Final Report is
attached as Appendix 1. 1




1
  The Commission’s summary chronology did not list a notification time for United Flight 175; however,
included in the body of the Commission’s Final Report is the statement that at 9:03 a.m., at approximately the
same time United Flight 175 struck the World Trade Center, FAA advised DOD that the aircraft might have
been hijacked.


Report No. CC-2006-085
                                                                                                        4

The Commission staff’s July 29, 2004, correspondence identified the following
inaccurate statements made by FAA and NORAD officials regarding the times at
which FAA notified NORAD that United Flight 93 and American Flight 77 had been
hijacked:

1. During the Commission’s May 23, 2003, hearing, a retired NORAD Colonel
   inaccurately testified that FAA notified DOD at 9:24 a.m. that American Flight 77
   had been hijacked. The Commission found that FAA never notified DOD that
   American Flight 77 had been hijacked.              Instead, it found that, at
   9:34 a.m., three minutes before American Flight 77 crashed into the Pentagon,
   FAA advised NEADS that American 77 was “missing.” 2

2. FAA officials, despite having documents containing an accurate time within their
   possession, omitted from FAA’s September 17, 2001, “Summary of Air Traffic
   Hijack Events,” the time at which FAA notified the NORAD’s Northeast Air
   Defense Sector (NEADS) that United Flight 93 had been hijacked. The
   Commission found that FAA notified NEADS at 10:07 a.m. that United Flight 93
   had been hijacked.

3. NORAD’s September 18, 2001, press release inaccurately stated that the time of
   FAA’s notification to DOD that United Flight 93 had been hijacked was “N/A,”
   i.e., “not applicable.” The Commission found the accurate time was 10:07 a.m.
   (NORAD’s press release, captioned “NORAD’s Response Times” is attached as
   Appendix 2.)

4. During the Commission’s May 23, 2003, hearing, the same retired NORAD
   Colonel inaccurately testified that FAA notified DOD at 9:16 a.m. that United
   Flight 93 had been hijacked. The Commission found the accurate time was 10:07
   a.m.

The Commission staff concluded that FAA officials had accurate information
concerning the above four statements. Thus, the Commission staff referred to us the
questions of whether FAA officials knew the above four statements were inaccurate
and, if so, why they failed to correct them. We investigated these questions and also
whether FAA officials intentionally omitted accurate information from any statement
or failed to correct an inaccurate statement after becoming aware of it.



2
 The Commission staff also identified two other inaccurate statements made by the NORAD Colonel at the
May 23, 2003, hearing. Because those statements involved actions by DOD officials, not FAA officials, they
were investigated by DOD/OIG.



Report No. CC-2006-085
                                                                                    5

Investigative Findings

1. We did not find evidence to conclude that FAA officials knowingly made false
   statements, purposely omitted accurate information from any statement, or
   intentionally failed to correct any inaccurate statement after becoming aware
   of it, regarding FAA notifications to DOD about the September 11 hijackings.

   a. FAA’s September 17 and 18 documents chronicling the events of September 11

We found that shortly following September 11, 2001, an FAA executive (now retired),
his subordinate manager (now an executive), and their staff created two documents
chronicling the events of September 11. The first document, dated September 17,
2001, was entitled “Summary of Air Traffic Hijack Events.” FAA officials told us this
document was prepared for, and circulated to, FAA, DOT, and other government
agencies. The second document, untitled and dated September 18, 2001, was prepared
for FAA internal use. These two documents (attached at Appendices 3 and 4) served
as the principal sources for other FAA documents chronicling the events of September
11.

In preparing the September 17 and 18 documents, the FAA executive cited the Air
Force’s NEADS log and also had available a transcript from FAA’s Cleveland Air
Route Traffic Control Center. Both of these documents correctly recorded FAA’s
notification to DOD about the hijacking of United Flight 93 as having occurred at
10:07 a.m. Despite the availability of this accurate information, FAA’s September 17
“Summary of Air Traffic Hijack Events” is silent as to the time of FAA’s notification
to DOD for United Flight 93.

Similarly, FAA's September 17 “Summary” is silent as to FAA’s notification to DOD
about American Flight 77. The Commission found that FAA never notified DOD that
American Flight 77 had been hijacked. Instead, the Commission found that at
9:34 a.m., three minutes before American Flight 77 crashed into the Pentagon, FAA
advised NEADS that American Flight 77 was “missing.”

FAA’s September 18 chronology document erroneously listed FAA’s notification time
to DOD about American Flight 77 as 9:24 a.m. The FAA executive, who was
responsible for preparing the document, told us that he cited the NEADS log as the
source for the 9:24 a.m. entry. We found, however, that he failed to cross-check the
tail number listed for the American Airlines aircraft in the 9:24 a.m. entry. Had he
done so, he would have discovered that the aircraft identified was American Flight 11,




Report No. CC-2006-085
                                                                                                        6

 not Flight 77. 3 Therefore, we concluded that, because of the executive’s lack of
attention to the details in the NEADS log, he mistakenly believed that FAA had
notified DOD of the hijacking of American Flight 77 at 9:24 a.m.

Further, the September 18 document inaccurately reported that the notification time for
United Flight 93 was “N/A,” i.e., “not applicable,” when, in fact, the NEADS log and
the Cleveland Center transcript both accurately show that FAA notified DOD of the
hijacking of United Flight 93 at 10:07 a.m., four minutes after the aircraft crashed in
Pennsylvania. 4

We interviewed the FAA executive and manager separately and each told us that at the
time they prepared the September 17 and 18 chronology documents, they did not
believe they had an accurate notification time for United Flight 93, and for that reason
they listed “N/A,” meaning “not applicable.” (We note that they took no further action
to establish an accurate notification time.) We also interviewed other members of their
staff, who did not contradict the rationale of the executive and manager for the lack of
a notification time. We do not find this explanation to be reasonable because the
NEADS log—which the executive and manager cited was the source of the
notification times for the three other hijacked aircraft—and the transcript from FAA’s
Cleveland Center (which was also available to them) show the correct notification time
for United Flight 93. However, while we could not determine whether these officials
omitted the correct notification time for United Flight 93 for any reason other than
what they told us, we considered two alternative possibilities:

First, we considered whether the FAA executive and manager may have adopted the
“N/A” entry from NORAD’s September 18, 2001, press release, a September 17 draft
of which FAA’s Office of Public Affairs had obtained. It is possible, for example, that
the “N/A” entry in NORAD’s press release created uncertainty on the part of the FAA
executive and manager about the United Flight 93 notification time as they were
preparing FAA’s September 18 chronology document. Thus, they may have deferred
to the NORAD release. However, despite the coincidence of the “N/A” entry in both
NORAD’s press release and FAA’s September 18 document, when we addressed this
possibility during our interviews, the FAA executive did not recall, and the manager
denied, having seen any draft of NORAD’s press release. We investigated the extent
to which FAA and DOD collaborated on their chronologies of events of
September 11. However, neither DOD/OIG’s investigation nor our investigation

3
 This entry in the NEADS log was based on an erroneous report that American Flight 11 was headed toward
Washington, DC.
4
 These two documents, along with multiple other drafts and versions of FAA’s September 11 chronology, were
obtained by the Commission pursuant to its mandate. Nonetheless, the Commission was able to produce an
accurate chronology that is the definitive record of the events of September 11.


Report No. CC-2006-085
                                                                                    7

established any direct coordination between DOD and FAA officials regarding the
chronologies.

Second, we considered whether the FAA executive and manager may have purposely
omitted the notification time to avoid disclosing that FAA did not notify DOD until
approximately four minutes after United Flight 93 had crashed. We asked them about
this and they denied it. Further, we discounted this possibility because both the
September 17 and 18 documents they produced reported that FAA had not notified
DOD of the hijacking of United Flight 175 until approximately two minutes after it
crashed into the World Trade Center. We found no evidence to explain why the
executive and manager would have purposely omitted one after-the-fact notification
and not the other.

Based on our investigation and factoring in the potential for human error under the
circumstances that existed during the week following September 11, and the
limitations of their recollections, we did not find evidence to conclude that the FAA
executive and manager omitted the correct notification times for American Flight 77
and United Flight 93 for any reason other than what they told us.

   b. NORAD press release dated September 18, 2001

The Commission staff questioned why FAA officials did not correct NORAD's
September 18, 2001, press release, which inaccurately stated that the time NORAD
was notified by FAA that United Flight 93 had been hijacked was “N/A,” i.e., “not
applicable.” As addressed above, the FAA executive and manager maintained that
they did not believe they had an accurate notification time for United Flight 93.

   c. Retired NORAD Colonel’s testimony of May 23, 2003

The Commission staff also questioned why FAA officials did not correct the retired
NORAD Colonel’s May 23, 2003, testimony in which he stated, erroneously, that
FAA notified DOD at 9:16 a.m. on September 11 that United Flight 93 had been
hijacked. During our interviews, only an FAA executive who attended the hearing
acknowledged being aware of the Colonel’s testimony. This FAA executive initially
recalled having been “upset” about the timeline in the Colonel’s testimony, and,
immediately following the hearing, unsuccessfully attempted to speak with a NORAD
official about inaccurate notification times in that timeline. However, following our
interview and after reviewing the Colonel’s testimony at our request, the FAA
executive advised us that her recollection was it was not the timeline about which she
attempted to talk to the NORAD official. Rather, she advised, she tried to tell the
NORAD official that the Colonel did not include in his testimony information about



Report No. CC-2006-085
                                                                                     8

the phone-bridge that was established between FAA headquarters and DOD on
September 11.

Finally, the Commission staff questioned why FAA officials did not correct the
NORAD Colonel’s May 23, 2003, testimony, in which he inaccurately stated that FAA
notified DOD at 9:24 a.m. that American Flight 77 had been hijacked. As addressed
above, we found that because of the executive’s lack of attention to the details on the
NEADS log, he mistakenly believed that FAA had notified DOD of the hijacking of
American Flight 77 at 9:24 a.m. Thus, we concluded that it would have been
reasonable for any FAA official aware of the Colonel’s testimony about FAA’s
notification time for American Flight 77 to have believed it was accurate because his
testimony was consistent with FAA’s erroneous chronology.

2. Our investigation disclosed that FAA inaccurately reported on its public
   website that FAA notified DOD of the suspected hijacking of American
   Flight 77 at 9:24 a.m. (In fact, no such notification was made.) FAA officials
   promptly corrected this error, which we attribute to an erroneous timeline
   entry, after we brought it to their attention in Fall 2004.

We found that FAA posted its September 11 chronology in two documents on its
public website. The first document, undated, was entitled FAA Responds. 5 The
second document, dated August 12, 2002, was an FAA “fact-sheet” entitled
Chronology of Events on September 11, 2001. 6 Both erroneously stated:

          0924. The FAA notifies NORAD’s Northeast Air Defense Sector about
                the suspected hijacking of American Flight 77.

In fact, as previously addressed in this report, FAA never made such a notification.
After we brought this inaccuracy to FAA’s attention (in September 2004 on the first
document and October 2004 on the second), the agency deleted it from each
document. We found no evidence to indicate that anyone at FAA posted these
documents knowing they were inaccurate. Instead, we found that FAA’s Office of
Public Affairs, which was responsible for preparing the documents posted on the
website, relied upon inaccurate documents chronicling the events of September 11.




5
    See www.faa.gov/Sept11portraits/chronology.cfm
6
    See www.faa.gov/newsroom/factsheets/2002/factsheets_020812.htm



Report No. CC-2006-085
                                                                                       9

3. We found that in its response to a May 22, 2003, Commission Question for the
   Record (QFR), FAA again inaccurately reported that it had notified DOD
   about American Flight 77. This, too, we attribute to FAA’s reliance on an
   erroneous timeline entry.

On May 22, 2003, former FAA Administrator Jane Garvey testified before the
Commission. During the hearing, she was asked the time at which FAA notified DOD
about American Flight 77. Because Administrator Garvey did not have this
information at hand, she told the Commission she would provide a response for the
record that evening. FAA’s response to the Commission’s QFR, captioned “FAA
Communications with NORAD on September 11, 2001,” which was submitted on the
night of May 22, 2003, and read into the Commission hearing record on May 23, 2003,
inaccurately reported that FAA notified DOD about American Flight 77 at
9:24 a.m. (FAA’s response to the Commission’s QFR is attached as Appendix 5.)

We determined that FAA’s QFR response was prepared by a now-retired FAA
executive and two current executives. We found that because these three executives
had relied upon inaccurate FAA documents chronicling the events of September 11,
they believed FAA notified DOD of the hijacking of American Flight 77 at 9:24 a.m.
We did not find evidence that these three executives knew that FAA never notified
DOD that American Flight 77 had been hijacked.

4. We also found the QFR response to be inaccurate regarding the time at which
   the Air Force Liaison to the FAA joined an FAA headquarters phone-bridge
   about the hijackings. We determined that three FAA executives learned of
   this inaccuracy shortly following FAA’s submission of the QFR response, but
   did not act to correct the record with the Commission; consequently, it was
   never corrected.

We found that the QFR response incorrectly related that the Air Force Liaison to FAA
joined the FAA phone-bridge on the hijackings and established contact with NORAD
“immediately” following the crash of the first aircraft (American Flight 11) into the
World Trade Center at 8:46 a.m. In fact, the Liaison did not join the phone-bridge
until after the third hijacked aircraft (American Flight 77) struck the Pentagon at
9:37 a.m. The Air Force Liaison told us:

      I was enroute to the [FAA headquarters] building when the first plane hit
      the World Trade Center. … [S]o probably five, ten minutes after that, I got
      to the building. … I went to my office. Everybody was there around the
      TV. We watched the events unfold. At first, we were kind of hanging
      back and saying, you know, there’s something awful going on with the air
      traffic system[.] … But at a certain point, not too long after that, it became

Report No. CC-2006-085
                                                                                   10

      obvious that, you know, something really strange is going on and so … I
      relocated. I went upstairs to the 10th floor. … It was right after the
      airplane hit the Pentagon.

The now-retired FAA executive told us she learned during a conversation with the Air
Force Liaison, which she told us may have occurred on the same day that FAA’s QFR
response was read into the record, that the response was inaccurate regarding when the
Liaison joined the phone-bridge. The other two FAA executives also told us that they
learned from speaking with the Liaison that the QFR response was inaccurate. One
executive told us that she spoke with the Liaison within a few weeks of the
submission of the QFR response, the other executive told us she spoke to the Liaison
by the end of the summer. None of these executives, however, informed the
Commission of the inaccuracy.

The now-retired executive told us she knew the other two executives were aware of
the inaccuracy and assumed they would correct it. The two current executives told us
they thought that the Air Force Liaison, when interviewed by Commission staff,
would tell the staff that she did not immediately join the phone-bridge on September
11. The Air Force Liaison told us that no one at the FAA spoke to her about
correcting FAA’s QFR response during her Commission staff interview and she did
not address the response when interviewed. Therefore, no one corrected this
inaccuracy.

In our view, these FAA executives had an affirmative obligation to correct FAA’s
May 2003 response to the Commission’s QFR directly with the Commission, as
opposed to relying on the Air Force Liaison to do so. Part of the Commission’s
mandate was to examine, and accurately report on, the interaction between FAA and
DOD on September 11. The time at which the Air Force Liaison joined the FAA
headquarters phone-bridge and established contact with NORAD was relevant to the
Commission’s mandate.

5. After September 11, FAA improved its capability to notify federal agencies
   about, and investigate its handling of, hijacked or suspicious aircraft.

While investigating statements about FAA’s notifications to DOD about the
hijackings on September 11, we also reviewed FAA’s post-September 11 capability to
notify federal agencies about a hijacked or suspicious aircraft, as well as FAA’s
capability to investigate its handling of a hijacked or suspicious aircraft. We found
that FAA acted to improve these capabilities.




Report No. CC-2006-085
                                                                                                    11

    a. FAA established the Domestic Events Network (DEN).

The DEN is a nationwide, open telephone line that allows federal agencies with
jurisdiction over the security of U.S. airspace to share, in real-time, information about
a hijacked or suspicious aircraft. It is managed by FAA in its Washington Operations
Center Complex (WOCC). Some of the agencies and organizations that continuously
monitor the DEN include: DOD (NORAD and NEADS), FAA air traffic field
facilities, and the Department of Homeland Security.

    b. FAA now records Washington Operations Center Complex telephone lines.

Prior to September 11, FAA did not have the capability to record telephone lines in the
WOCC. FAA now records most WOCC telephone lines, including the DEN. Though
there is no FAA policy on retention of the recordings from those lines, they are kept
for six months as a matter of practice. Priority telephone lines used by the Secretary,
the Administrator, and Deputy Administrator, and the lines used for classified voice
and video communications, remain unrecorded.

    c. FAA instituted new procedures for air traffic controllers on communicating
       information about a hijacked or suspicious aircraft over the DEN.

On September 11, three FAA divisions—Air Traffic, Civil Aviation Security, and the
Office of the Deputy Administrator—were responsible for FAA’s response to a
hijacked or suspicious aircraft. We discovered five procedures or protocols, three for
Air Traffic and two for the Deputy Administrator and Civil Aviation Security staffs,
regarding how information was to be provided to DOD about a hijacked or suspicious
aircraft. We found that these pre-September 11 procedures provided indirect lines of
communication from air traffic controller to DOD about a hijacked or suspicious
aircraft. As the Commission concluded in its final report, in this regard, FAA’s
“existing protocol was unsuited in every respect.”

Following September 11, FAA issued a new policy, “Aircraft Hijack and Suspicious
Inflight Activities—Response and Notification Procedures,” that requires air traffic
control facilities to directly report a hijacked or suspicious aircraft to the DEN. 7
However, four of the five pre-September 11 procedures also remain in effect. In order
to avoid confusion about which FAA procedures govern FAA’s response to a hijacked
or suspicious aircraft, we are recommending that FAA review its procedures and
eliminate those that are inconsistent or duplicative.


7
  FAA Notice 7110.422, dated 11/14/05, is the most recent version of these procedures. It is considered
"Sensitive Security Information" and its release is governed by 49 CFR § 1520.


Report No. CC-2006-085
                                                                                               12

To evaluate the effectiveness of FAA’s post-September 11 communication procedures,
we reviewed reports by FAA and the House Subcommittee on Aviation regarding the
June 9, 2004, flight carrying the Governor of Kentucky to Washington Ronald Reagan
National Airport to attend President Reagan’s funeral—an incident that resulted in the
evacuation of the Capitol.

The Subcommittee’s July 2004 report concluded that a number of “key” errors
contributed to the decision to evacuate the Capitol. First, FAA allowed the aircraft
(bearing tail number N24SP) to enter the Washington, DC Area Defense Identification
Zone (ADIZ) with an inoperative transponder. 8 Second, FAA incorrectly broadcast
over the DEN that N24SP had a transponder signal, but that its altitude read-out was
not functioning. And, third, FAA failed to identify an aircraft radar return, which did
not contain transponder data, as N24SP.

In response to these errors, we found FAA made several changes, including requiring
every aircraft entering the Washington ADIZ to have an operative transponder with an
automatic altitude readout. FAA also mandated refresher training for all air traffic
controllers on, among other things, communicating over the DEN. FAA informed us
that there have been no such similar incidents attributable to errors on the part of
FAA.

Recommendations

1. FAA should correct its response to the Commission’s May 22, 2003, Question for
   the Record.

2. FAA should consider appropriate administrative action for the two current
   executives who did not act to correct the record with the Commission. In our
   view, they had an affirmative obligation to do so in light of the Commission’s
   mandate that included examining, and accurately reporting on, the interaction
   between FAA and DOD on September 11. The time at which the Air Force
   Liaison joined the FAA headquarters phone-bridge and established contact with
   NORAD was relevant to the Commission’s mandate.

    As a mitigating factor, and to provide some context, we note that at the time, the
    FAA, including these executives, produced over 6,000 documents and materials
    to the Commission.




8
 The ADIZ is defined as the airspace less than 18,000 feet in an approximate 30-mile radius around
Washington, DC.


Report No. CC-2006-085
                                                                                 13

3. FAA should institute a formal policy for the preservation of telephone recordings
   following notification of hijacked or suspicious aircraft.

4. In order to avoid confusion about which FAA procedures govern FAA’s response
   to hijacked or suspicious aircraft, we are recommending that FAA review its
   procedures and eliminate those that are inconsistent or duplicative.

                                         #

Appendices
1. Chronology for each of the hijacked flights from the Commission’s Final Report.
   [1 page]

2. NORAD’s September 18, 2001, press release, captioned “NORAD’s Response
   Times.” [1 page]

3. FAA’s September 17, 2001, “Summary of Air Traffic Hijack Events.” [13 pages]

4. FAA’s September 18, 2001, untitled chronology. [1 page]

5. FAA’s response to the Commission’s May 22, 2003, Question for the Record.
   [1 page]




Report No. CC-2006-085
                                                                                                                                                                                                     I
                                                                                  32                      THE 9/1 1 C O M ~ I S S I O NREPORT                                                        I                      "WE HAVE SOME PLANES"                                            33


                                                                                  American Airlines Flight 11                               1 United Airlines Flight 175                        Aknerican Airlines Flight 77                     United Airlines Flight 93
Appendix 1 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




                                                                                  (m11)                                                     ( '(UA 175)                                         (AA 77)                                          (UA 93)
                                                                                  Boston to Los Angeles                                     1   Boston to Los Angeles                           Washington, D. C., to Los Angeles                Newark to Sun Fvancisco




                                                                                                                                        I
                                                                                           Takeoff                                 I              8:14        Takeoff                               $:20        Takeoff                            8:42      ~aieoff
                                                                                           Last routine ra&o                       I              8:42        Last radio communication              8:51        Last routine radio                 9:24       ~ l i $ h93
                                                                                                                                                                                                                                                                       t receives warning
                                                                                                                                                                                                        I
                                                                                           communication; likely takeov4r                         8:42-8:46   Likely takeover                           I       communication                                 from UA about possible
                                                                                           Flight attendant notifies AA of                        8:47 .      Transponder code changes              8:51-854 Likely takeover                                  co(kpit intrusion
                                                                                           hijacking                            I                 8:52        Flight attendant notifies UA of        $54        Flight 77 makes unauthorized       9:27       Ladt routine radio
                                                                                           Transponder is turned off             1                            hijacking                                I        turn to south                                 co~unication
                                                                                           AA attempts to contact the               1             8:54        UA attempts to contact the              b:56      Transponder is turned off          9:28       Likely takeover
                                                                                           cockpit                              I                             cockpit                                Q:05       AA headquarters aware that         9:34       ~ 4 r n d o nCommand Center
                                                                                           Boston Center aware of              (                  8:55        NewYork Center suspects                I
                                                                                                                                                                                                     I          Flight 77 is hijacked                         adtrises FAA headquarters that
                                                                                           hijacking                           I                              hijacking
                                                                                                                                                                                                    I
                                                                                                                                                                                                     9:25       Herndon Command Center                        ~4 93 is hijacked
                                                                                           Boston Center notifies NE@S                            9:03:11     Flight 175 crashes into 2WTC          I           orders nationwide ground stop      9:36       Flight attendant notifies UA of
                                                                                           of hijacking                       I                                (SouthTower)                         9:32        Dulles tower observes radar of                 hijacking; UA attempts to
                                                                                                                                                                                                    I
                                                                                           NEADS scrambles Otis fightkr                           9:15        NewYork Center advises               I            fast-moving aircraft (later                    contact the cockpit
                                                                                           jets in search of AA 11                                            NEADS that UA 175 was the                         identified as AA 77)               9:41        ~ { a n s ~ o n dise rturned off
                                                                                           AA 11 crashes into 1W T C
                                                                                                                                    1                          second aircraft crashed into
                                                                                                                                                                                                   I

                                                                                                                                                                                                         9:34    FAA advises NEADS that            9:57        Pdssenger revolt begins
                                                                                            (North Tower)                   I                                 WTC                                 I              AA 77 is missing                   10:03: 11 ~ $ ~ 93   h crashes
                                                                                                                                                                                                                                                                            t          in field in
                                                                                            Otis fighter jets airborne     (                      9:20        UA headquarters aware that         ( 9:37:46 AA 77 crashes into the                              Shanksville, PA
                                                                                            AA headquarters aware that (                                      Flight 175 had crashed into        I               Pentagon                           10:07      cieveland Center advises
                                                                                            Flight 11has crashed into 1                                       WTC                                         10:30  AA headquarters confirms                      NEADS of UA 93 hijacking
                                                                                            WTC                           I                                                                     I
                                                                                                                                                                                                I
                                                                                                                                                                                                                 Flight 77 crash into Pentagon      10:15      UA headquarters aware that
                                                                                            Boston Center advises NE&S                                                                                                                                         Flight 93 has crashed in PA;
                                                                                            that AA 11is airborne headihg                                                                                                                                      Xbashington Center advises
                                                                                            for Washington
                                                                                            NEADS scrambles Langley
                                                                                             fighter jets in search of  I
                                                                                                                         I
                                                                                                                                ~                                                                                                                               WEADS that Flight 93 has
                                                                                                                                                                                                                                                                ckashed in PA
                                                                                                                                                                                                                                                                 I

                                                                                                                                I
                                                                                            AA 11
 Appendix 2 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




                                                 NORTH AMERICAN
       <
                                                 AEROSPACE DEFENSE COMMAND




                                                           YOR4D'S Response Tinges
PETERSOX AFB, Culn. --The YoIiowing uaelincs shaa P;OR-Pr)'s response ta rha atrlirie;
highjijz~kingson Srgtember 1 I . 2001

                              Day::gR~.T - l i l l ~ ;xE.%nS
                                                           :::. x~r:fiE2j: A:r Defer~seSccror, ?iTOkCnT)
                   -
"I!; i i 3 - r 2 : ~C3ji.)l::
                    .
" - < y a r t i : 13r.:,sr:(> ge: an :ri;c::;i". :iri?m:, ii-. $:!(!a a%p~<%lb;c
-*if,sr:~r:?,recl= :?as ,-$radar .  . ;cntac:                                      -
*ax*
       r i.$kr :ha?rlrc iaIii:i$~cd 31; 9 ;niiej pcr m2n:rre or .%.\-:ch
       r:


            ,...
e r t r r -<, 7 ~ , i.:$,~$
                    - - + 2nd     YE,,!&%   :srabIlsb,cJ   1i:li.   .if;>p:a~ .:3zn:.ir-,i;srir;l   dis-iissi?!: A.4 Fit 77 arid t.JA F!t 9.:


Arnericaxt Airlines Flight I1 -- bust at^ toroutc t t ~'Lus Aheeles
FAA N~tifT~ica:,ian  ro SEADE                                                                                          itS40'
Fig?;?: Scrambit: C):dcs (Oii.~   ..lf,r :?rjficsz;l G1r2:.6 B::se, fiilll)tou;(i5 4f::s             irw o F-I X r j   ff 84 6* '
 'igiiiers Airbon~e                                                                                                    '3x52
  ,iriihie irnpaa fime ji5'orlil Trade Cca~er1:)                                                                                         ***
                                                                                                                       O 846 fe,~fi~tlcreci)
F!ghter Ti;nelT)ir;:arzc-rfrorn Airiiile l m p a a Locatisr!                                                           Aircrafr nor airbornr.?",53 mi:.-$

UrlrtetJ air fine^ Fiil~ht175 - Bcr~tnnerrroute to Los .4r1&3
FAA fis::ii:a?~~~i;in NLADS




American Fti~Lit"7-Dulles enroute to Los An&
FAA Nztificatior, i o >'":ED5                                                                                          9924
Fjgli~crS c r s m b ! ~Qder (LongiTej' AFLt, ,Ysmj.ror~,!.-3. 1 F-163;                                                 0321
Fi2htt:;s A.irbni2e                                                                                                    Ogi0
Air[lr:e i:::pact Tinii. (Pa&g?ai                                                                                      093 7 &slin;g:tnred)
~ : ~ .-i    ..!-nz   p ~ horn A,:iine inpact I,cxa.:inn
             i ~, i . ,h~,~.;t.
                   -a):,..,g--.                                                                                        appro"? rnin(!!j! miles

 Cnitedl Yliotrr 911 - 3 e w a r k to San Francisco
 ----.
 TAA X-rtificatlon ro &';E.IIPS                                                                                        ?;.'A   *"a*

 Fi@e: Scra~2b.eQrrjer (Lc;!rgl~.~      F-.!$.;gl:.eiz4g,ul~bome;r;3r A.4   ;'",
 F'igiters Airbarrje iLatlgiey F-15 CC4P~-srn~%ns               e proieci DC,)
                                                       in p b ~ 16
Air-;in2 Ir~~pac:Tim: jl1efinsyiva:liaj                                                                                ,!Vu3
                                                                                                                        - A    [e~ff~naied/
.,-
 r:ghter Tirne'Distlncc from Airline Xrr?pact I,.o;;?riar;                                                             approx B i nlinJlDO miles
                                                                                                                            : P-15 C.@j
                                                                                                                           DC
                                                                                                                       &:J:P
                                                                                           -30-
     Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral

NOTE: This appendix is an excerpt of the complete document (dated September 17, 2001) and
            contains only the chronologies for each of the four hijacked aircraft.
Appendix 3 to DOT/OIG
    Appendix           Report
               3 to DOT/OIG   on Investigation
                            Report             of 9/11
                                   on Investigation  ofCommission Staff Referral
                                                       9/11 Commission  Staff Referral



     American Airlines Flight 11 (AAL11)
     Boston - Los Angeles
     All times indicated are Eastern Daylight Savings Time


     0756:27      Boston Airport Traffic Control Tower (BOS) issued taxi instructions to AAL11.

     0800:OO      AAL11 began takeoff roll, runway 4 Right, Boston Logan International Airport.
                  All communications with BOS and with Boston Departure Control were routine
                  and normal.

     0809: 17     AAL11 established radio contact with Boston Air Route Traffic Control
                  Center (ZBW). "Boston Center, good morning, American Eleven with you
                  passing through one-nine-zero (nineteen thousand feet) for two-three-zero
                  (twenty-three thousand feet)."

     0809:22      ZBW acknowledged AAL11. From this time until 08 13:31 all communications
                  appear routine and normal. The sector was responsible for six aircraft including
                  AAL11. The flight was instructed to climb to twenty-eight thousand feet,
                  subsequently to twenty-nine thousand feet, and issued a twenty degree turn for
                  traffic.

     O813:47      ZBW instructed AAL1lL'American Eleven, now, climb and maintain flight
                  level three-five-zero (thirty-five thousand feet)." There was no
                  acknowledgement to this transmission. ZBW made two subsequent
                  transmissions to AAL11, neither of which were acknowledged. Between 0813:47
                  and 0824:53, ZBW made several radio transmissions attempting to contact
                  AAL11. None of the attempts were acknowledged.

     0814:45      ZBW during intra-facility coordination recognized that AAL11 appeared to be
                  turning right but had not acknowledged the climb clearance to thirty-five
                  thousand feet and did not acknowledge any further radio transmissions.

     0817:59      A brief unknown sound (possibly a scream) from an unknown origin was heard
                  over the ZBW radio.

     0820:48      Secondary radar return (transponder) indicating aircraft speed, altitude, and
                  flight information was lost on ZBW radar displays. The aircraft was then
                  observed as a primary radar target only.

     0824:38      A radio transmission partially unintelligible stated, "we have some planes just
                  stay quiet and you'll be ok we are returning to the airport" from an unknown
                  origin was heard over the ZBW radio.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral


                                                                             -
            A second radio transmission partially unintelligible stated "nobody move
            everything will be ok if you try to make any moves you'll endanger yourself and
            the airplane just stay quiet" - from an unknown origin was heard over the ZBW
            radio.

            ZBW began notification based on radio transmissions that a suspected hijack was
            in progress. The New England Regional Operations Center (ROC), the Air
            Traffic Control System Command Center (ATCSCC), and the ZBW facility
            manager were notified. Additionally, controllers began inter-facility coordination
            with New York Air Route Traffic Control Center (ZNY) of the possible hijaclung.
            Coordination describes the last known altitude as twenty-nine thousand feet.

            AALll began southbound turn over Albany, New York. The last known
            altitude was twenty-nine thousand feet.

            A third radio transmission partially unintelligible stated "nobody move please we
            are going back to the airport don't try to make any stupid moves" - from an
            unknown origin was heard over the ZBW radio. A A L l l primary radar track was
            still southbound, and the last known altitude was twenty-nine thousand feet.

            ZBW contacted Cape Terminal Radar Approach Control (located on OTIS Air
            Force Base) and requested they notify the Military of the events regarding
            AALll.

            New England Regional Operations Center advised Washington Operations Center
            (WOC) of the suspected hijack of A A L l l .

            WOC notified Civil Aviation Security Intelligence (ACI), and conferenced New
            England Regional Operations Center and the Air Traffic Control Systems
            Command Center (ATCSCC).

            ZBW notified New York Air Route Traffic Control Center (ZNY) of possible
            hijaclung of AALll.

            North East Air Defense Sector (NEADS) logs indicate they were notified by the
            Federal Aviation Administration of the events concerning AALll.

            Military Command (VACAPES) issued scramble order on AAL11.

            ZNY facility manager notified New York Terminal Radar Approach Control
            (N90) of possible hijaclung of AAL11. N90 began internal coordination of the
            aircraft's last known altitude (twenty-nine thousand feet) and southbound course.

            Primary radar tracking of AALll was lost.

            Impact at World Trade Center.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




0850:OO       Washington Operations Center activated a Tactical Net at the request of Civil
              Aviation Security Intelligence (ACI).

0850:OO       Newark Airport Traffic Control Tower (EWR) advised N90 of possible aircraft
              crash into the World Trade Center.




AAT-20
September 17, 2001
6:30 AM
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral



United Airlines Flight 175 (UAL175)
Boston - Los Angeles
All times indicated a r e Eastern Daylight Savings Time

0804:55       Boston Airport Traffic Control Tower (BOS) issued taxi instruction to UAL175.

0814:OO       UAL175 began takeoff roll, runway 9, Boston Logan International Airport. All
              communications with BOS and with Boston Departure Control were routine and
              normal.

0823:Ol       UAL175 established radio contact with Boston Air Route Traffic Control
              Center (ZBW). "Boston, morning, United one-seven-five out of one-nine
              (nineteen thousand feet) for two-three-zero (twenty-three thousand feet)."

0823:06       ZBW acknowledged UAL175. At this point the controller was busy due to the
              events surrounding AAL11. The sector was responsible for six aircraft including
              UAL175. All communications between ZBW and UAL175 appear routine and
              normal. The flight was subsequently instructed to climb to flight level 310
              (thirty-one thousand feet) and after radar handoff, was issued a frequency change
              to contact the New York Air Route Traffic Control Center (ZNY).

0840:32       UAL175 established radio contact with ZNY. "United one-seventy-five at flight
              level three-one-zero."

0840:37       ZNY acknowledged UAL 175. "United one-seventy-five, New York Center,
              roger. "

0841:32       UAL175 transmitted to ZNY, "We figured we'd wait to go to your center, we
              heard a suspicious transmission on our departure out of Boston. Someone keyed
              the mike (initiated radio communications) and said everyone stay in your seats."

0841:51      ZNY replied, "okay, I'll pass that along." (The controller ensured UAL175's
             comments were forwarded to the Operations Manager.)

0844:05      US Air Flight 83 transmitted to ZNY "I just picked up an ELT (emergency locator
             transmitter) on 121.5 (emergency VHF frequency). It was brief, but it went off."

0844:09      ZNY acknowledged US Air Flight 83
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral


                                                                            -
0846:48     UAL175's assigned transponder code of 1470 changed, first indicating 3020,
            then changing again to 3321. ZNY air traffic computers do not correlate
            either of these codes with UAL175. Consequently, the secondary radar
            return (transponder) indicating aircraft speed, altitude, and flight
            information began to coast and was no longer associated with the primary
            radar return. Note: The controller communicating with UAL175 was also
            monitoring the flight track of AAL11. Based on coordination received from
            ZB W indicating a possible highjack, most of the controller's attention was
           focused on AALll.

0851:43     ZNY transmitted to UAL175, "UAL175, recycle transponder, squawk code
            one four seven zero." No response was received from UAL175. The
            controller made several attempts, repeatedly trying to contact UAL175 for
            the next four minutes. During this time, the aircraft was also observed
            making a left turn and descending.

0853:24     ZNY controller coordinated internally, asking other controllers if they saw
            UAL175, or if they knew who the unidentified radar target is on transponder
            code 3321. None of the other controllers replied in the affirmative. Note:
            The unknown aircraft in this and all following times was later confirmed to be
            UALl75.

0855:OO     ZNY controller was busy trying to turn other aircraft away from the aircraft
            believed to be UAL175. The flight track of this aircraft had changed and was
            now headed southeast bound.

0855:OO     This time is approximate based on personnel statements from ZNY. A controller-
            in-charge (CIC) advised the Operations Manager (OM) that she believed UAL175
            was also hijacked. The OM advised the CIC that an aircraft had hit the World
            Trade Center. The CIC began coordinating with the controllers working position
            and one of the controllers stated that UAL175 appeared to heading "right towards
            the city." The CIC returned to the OM position and heard a request for military
            aircraft to scramble. UAL175 was observed in a rapid descent

0855:OO    This time is approximate based on personnel statements from ZNY. A controller
           working a different position within ZNY reported that two aircraft , a Delta
           Airlines flight was given instructions to avoid an unknown aircraft. At about the
           same time a US Airways flight reported taking evasive action from an unknown
           aircraft. The controller reported that the unknown aircraft was now headed
           towards New York City. This controller, along with other controllers speculated
           that the unknown aircraft was an emergency and was heading for an airport to
           land.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




0900:OO      This time is approximate based on personnel statements from New York
             Terminal Radar Approach Control (N90). N90 controller stated "at
             approximately 9:00, I observed an unknown aircraft south of the Newark,
             New Jersey Airport, northeast bound and descending out of twelve thousand
             nine hundred feet in a rapid rate of descent, the radar target terminated at
             the World Trade Center."

0903: 14     Second Impact at World Trade Center.

0905:OO      North East Air Defense Sector (NEADS) logs indicate they were notified by the
             Federal Aviation Administration of the events concerning UAL175.

0905:OO      N90 received notification from the Newark Airport Traffic Control Tower of a
             second aircraft strilung the World Trade Center.




AAT-20
September 17, 2001
6:30 AM
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




United Airlines Flight 93 (UAL93)
Newark - San Francisco
All times indicated are Eastern Daylight Savings Time


0809: 18     Newark Airport Traffic Control Tower (EWR) issued taxi instructions to UAL93.

0842:OO      UAL93 began takeoff roll, runway 4 left, Newark New Jersey International
             Airport. All communications with EWR, with New York Departure Control,
             and with New York Air Route Traffic Control Center (ZNY) were routine
             and normal.

0924:30      UAL93 established radio contact with Cleveland Air Route Traffic Control Center
             (ZOB), "Good morning Cleveland, United ninety-three, three-five-oh (thirty-five
             thousand feet), intermittent light chop." The controller was busy, the sector was
             responsible for sixteen aircraft. Of these, several aircraft were being issued new
             routes based on the events occurring on the east coast. The controller did not
             reply to this initial transmission.

0925: 14     UAL93 again reported on ZOB frequency, "United ninety-three checking three-
             five-oh (thirty-five thousand feet)." The controller replied, "United ninety-three,
             Cleveland, roger." Note: This was the third radar sector within ZOB to
             communicate with UAL93. The communications with the previous sectors were
             routine and normal.

0928: 19     A radio transmission of unintelligible sounds of possible screaming or a struggle
             from an unknown origin was heard over the ZOB radio.

0928:54      A second radio transmission, mostly unintelligible, again with sounds of possible
             screaming or a struggle and a statement, "get out of here, get out of here" from an
             unknown origin was heard over the ZOB radio. At about this same time, the ZOB
             controller observed that UAL93 had descended, altitude indicated thirty-four
             thousand, three hundred feet.

0929:29      ZOB controller asked UAL93, "United ninety-three, verify three-five-zero
             (thirty-five thousand feet)." There was no reply. The ZOB controller made
             several attempts to contact UAL93 without receiving any acknowledgement.

0929:50      ZOB controller began moving other aircraft away from UAL93 due to the
             lack of acknowledgement of any radio transmissions. Several other aircraft
             on the frequency confirmed unusual sounds of an unknown origin. The
             altitude of UAL93 again indicated thirty-five thousand feet.


0931:57      A third radio transmission, mostly unintelligible, may sound like an individual out
             of breath, more unintelligible words and what sounds like "bomb on board from
             an unknown origin was heard over the ZOB radio.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




            A fourth radio transmission stated "did you hear that transmission that reported a
            bomb on board?" from an unknown origin was heard over the ZOB radio.

            ZOB controller observed that UAL93 was climbing without an air traffic control
            authorization. The aircraft had started a turn to the southeast, also without air
            traffic control authorization.

            UAL93 altitude indicated forty-thousand seven hundred feet.

            A fifth radio transmission, mostly unintelligible, stated words that may sound like
            LL
               captain, . . .bomb on board, . ..our demands, . . .remain quiet"

            ZOB notified Great Lakes Regional Operations Center of the screams and
            statements from unknown origin, believed to be UAL93.

            Secondary radar return (transponder) indicating aircraft speed, altitude, and
            flight information becomes intermittent and eventually failed on ZOB radar
            displays.

            ZOB controller notified Pittsburgh Terminal Radar Approach Control (PIT) North
            Arrival controller of the unanticipated turn, the loss of secondary radar return and
            lack of radio communications with UAL93. The ZOB controller also stated that
            the projected flight path would result in UAL93 passing in close proximity if not
            directly overhead the Greater Pittsburgh International Airport.

            PIT controller notified the Operations Supervisor of the events surrounding
            UAL93. The PIT controller also manually initiated radar tracking of the primary
            radar target.

            After determination by the PIT facility manager to evacuate, the controllers have
            completed coordination with adjacent facilities and the PIT facility has been
            evacuated.

            A small contingency of controllers (volunteers) returned to the facility and
            coordination with adjacent facilities pertaining to return to operational status is
            completed. The track of UAL93 was no longer visible on the PIT radar displays.

            This time is approximate and is based on personnel statements from ZOB. A
            ZOB controller's statement indicated that the pilot of a VFR aircraft reported
            sighting a United Airlines aircraft at approximately eight thousand feet in the
            vicinity of the Latrobe, Pennsylvania airport. The pilot also reported that the
            United Airlines aircraft's landing gear was down, the wings were rocking, and
            that the aircraft appeared to be in distress.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral


                                                                             -
1004:OO      This time is approximate and is based on personnel statements from ZOB. A
             ZOB controller statement indicated that UAL93's primary radar target terminated
             in the vicinity of Somerset, Pennsylvania.

1007:OO      In response to a request from a ZOB controller, N20VF, a Falcon Jet
             reported observing puffs of smoke in the vicinity of UAL93's last known
             position.

1041:OO      After receiving a telephone call from the Somerset, Pennsylvania police
             department stating that several "91 1" telephone calls had been received reporting
             an aircraft accident, a ZOB operations manager made official notification to Great
             Lakes Regional Operations Center. Note: Although this is the officially
             documented notification time, FAA oficials were aware of the accident as these
             events were reported as they occurred on a critical event teleconference
             established at the Federal Aviation Administration headquarters building.




AAT-20
September 17, 2001
6:30 AM
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




American Airlines Flight 77 (AAL77)
Washington Dulles - Los Angeles
All times indicated are Eastern Daylight Savings Time


0812:29      Dulles Airport Traffic Control Tower (IAD) issued taxi instructions to AAL77

0820:OO      AAL77 began takeoff roll, runway 30, Washington Dulles International Airport.
             All communications with IAD and with Dulles Departure Control were routine
             and normal.

0825:49      AAL77 established radio contact with Washington Air Route Traffic Control
             Center (ZDC), "Center, American seventy-seven with you passing one-three
             decimal zero (thirteen thousand feet) for one-seven-thousand (seventeen
             thousand feet)." All communications between ZDC and AAL77 appear
             routine and normal. AAL77 was subsequently handed off to the Indianapolis
             Air Route Traffic Control Center (ZID).

0840: 14     AAL established radio contact with ZID. "Center, American seventy-seven with
             you, level three thirty (thirty-three thousand feet).

0840: 16     ZID acknowledged, "American seventy-seven, Indy center, roger, squawk three-
             seven-four-three." (Squawk is a control instruction to change the transponder
             setting within the aircraft). AAL77 was subsequently instructed to climb to
             thirty-five thousand feet and later cleared to navigate direct to the Falmouth
             navigational aid. When ZID acknowledged AAL77, the sector was responsible
             for fourteen aircraft; additionally four aircraft were in handoff status to this sector.

0850:51      AAL77 acknowledged the clearance to Falmouth. This was the last radio
             communication with this flight.

0854:43      AAL77 began a left turn towards the south without air traffic authorization.
             The altitude indicated thirty-five thousand feet. Shortly after the turn, the
             aircraft was observed descending.

0856:19      Secondary radar return (transponder) indicating aircraft speed, altitude, and
             flight information is lost on ZID radar displays. There was no longer any
             radar return information (either primary or secondary) on AAL77 indicated
             at the ZID radar displays. Note: The initial review of radar data, and
             controller personnel statements conducted by ZID did not indicate any primary
             or secondary radar returns were displayed.

0856:32      ZID controller attempted to contact AAL77, "American seventy-seven, Indy."
             There was no acknowledgement. ZID also tried to communicate with AAL77
             through American Airlines company radios.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral



                                                                             -
            ZID also made several attempts to contact AAL77 through American Airlines
            company dispatch.

            ZID controllers began coordinating with other controllers to protect the airspace
            and altitude of AAL77's filed route of flight.

            ZID notified Great Lakes Regional Operations Center a possible aircraft accident
            of AAL77 due to the simultaneous loss of radio communications and radar
            identification.

            This time is approximate based on personnel statements from ZID. The ZID
            Operations Manager requested that the Traffic Management personnel notify Air
            Force Search and Rescue of the missing and possibly downed aircraft. The
            Operations Manager also contacted the West Virginia State Police advising them
            of a possible downed aircraft and asks if they have any reports of a downed
            aircraft.

            This time is approximate based on personnel statements from ZID. The Z D
            Operations Manager contacted the Chicago Air Route Traffic Control Center
            (ZAU) and advised the ZAU Operations Manager of his concern that AAL77 may
            have been hijacked and that he (ZAU Operations Manager) should be on the look
            out (based on events occurring in New York)..

            Great Lakes Regional Operations Notified Washington Operations Center of the
            simultaneous loss of radio communications and radar identification.

            Between 0925:OO and 0930:00, this time is approximate based on personnel
            statements from Dulles Terminal Radar Approach Control (IAD). Several IAD
            controllers working radar positions in the facility observed a primary radar
            target tracking eastbound at a high rate of speed. Note: The unknown
            aircraft in this and all following times was later confirmed to be AAL77.

            This time is approximate based on personnel statements from IAD. An
            Operations Supervisor at IAD advised the White House Office of the United
            States Secret Service of an unknown aircraft heading in the direction of the White
            House, fast moving. Meanwhile, a controller was providing the same information
            to controllers working at the Ronald Reagan Washington National Airport Traffic
            Control Tower (DCA). The IAD Operations Supervisor also provided continuous
            updates on a critical event teleconference established at the Federal Aviation
            Administration Headquarters building.

            This time is approximate based on personnel statements from DCA. An
            Operations Supervisor at DCA was advised by IAD of the unknown aircraft. The
            Operations Supervisor at DCA immediately notified the White House Office of
            the United States Secret Service of the unknown aircraft's location and provided
            continuous updates.
Appendix 3 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




 0936:OO      Personnel at DCA issued traffic advisories on the unknown aircraft to a military
              C 130 aircraft that had departed Andrews Air Force Base. When the C 130 aircraft
              (GOFER06) reported the unidentified aircraft in sight, the pilot was instructed to
              follow the unknown aircraft.

 0938:OO      GOFER06 reported that the unknown aircraft had crashed into the western
              side of the Pentagon.




AAT-20
September 17, 2001
6:30 AM
       Appendix 4 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral



I-                            AALll                 UAL175                 AAL77                 UAL93



First Sign                    08:201                  08: 46'               0856~                 09:2s4



Probable time
flight was known to            08:25j                 08: 526               08:56~                09:32'
be in distress


NORAD**
NEADS***                      08:40*                  09:05*               09:24*                  NA*
Notification


Estimated
Crash time                     08:46                  09:03                 09:38                  10:04


All times are Eastern
Dayllght Time

 1. AALl 1 secondary radar return (transponder) lost.

 2. UAL175 assigned transponder code of 1470 changes; communications lost.

 3. AAL77 secondary radar return (transponder) and radar contact was simultaneously lost.

 4. Two radio transmissions of unintelligible sounds: possible screaming, sounds of a struggle and
    "get out of here" is heard over the Cleveland ~ i r ' ~ o uTraffic
                                                                te     Control Center radio. The mode C
    for UAL93 has descended 700 feet from assigned altitude

 5. A radio transmission is heard telling passengers "nobody move everything will be ok if you try to
    make any moves you'll endanger yourself and the airplane just stay quiet."

 6. UAL175 has failed to respond to several calls and is observed turning off course.

 7. Aircraft is presumed crashed over Pennsylvania.

 8. UAL93 is unresponsive to multiple calls from the controller. Additionally, there are three
    transmissions indicating a possible struggle aboard an aircraft.

     *These times are derived from the review of the NEADS log.
     "North American Aerospace Defense Command (NORAD)
       Jortheast Air Defense Sector (NEADS)

           by AAT-20, Revised on September 18,2001 at 1400
Appendix 5 to DOT/OIG Report on Investigation of 9/11 Commission Staff Referral




 FAA's Response to the 9/11 Commission's May 22, 2003, Question for the Record.




  FAA communications with NORAD
  On September 11, 2001

  Within minutes after the first aircraft hit the World Trade Center, the FAA immediately
  established several phone bridges that included FAA field facilities, the FAA Command
  Center, FAA headquarters, DOD, the Secret Service, and other government agencies. The
  US Air Force liaison to the FAA immediately joined the FAA headquarters phone bridge
  and established contact with NORAD on a separate line. The FAA shared real-time
  information on the phone bridges about the unfolding events, including information about
  loss of communication with aircraft, loss of transponder signals, unauthorized changes in
  course, and other actions being taken by all the flights of interest, including Flight 77.
  Other parties on the phone bridges, in turn, shared information about actions they were
  taking.

  NORAD logs indicate that the FAA made formal notification about American Flight 77
  at 9:24 a.m., but information about the flight was conveyed continuously during the
  phone bridges before the formal notification.
